Case No.___________
____________
IN THE
SUPREME COUR T OF THE UNITED STATES
___________
CRAIG B. SNODDY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
__________
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

MOTION TO PROCEED IN FORMA PAUPERIS
Dennis J. Clark
Supreme Court Bar No. 130830
Attorney for Petitioner
Craig B. Snoddy
Clark Law Firm PLLC
645 Griswold, Suite 2200
Detroit, MI 48226
djclarklaw@gmail.com
313-962-2233

MOTION TO PROCEED IN FORMA PAUPERIS
Now comes Petitioner Craig B. Snoddy, who seeks leave to proceed in forma
pauperis in this Court, more particularly as follows:
1. Petitioner Snoddy wishes to file a Petition for a Writ of Certiorari without
prepayment of costs and to proceed in forma pauperis.
2. Petitioner has previously been granted leave to proceed in forma pauperis
in both the U.S. District Court for the Eastern District of Tennessee and the U.S.
Court of Appeals for the Sixth Circuit and each court appointed counsel for
Petitioner.
3. The Federal Defenders Office first represented Mr. Snoddy in the U.S.
District Court for the Eastern District of Tennessee; subsequently, counsel was
appointed pursuant to the Criminal Justice Act, 18 U.S.C. ยง3006A et seq. (USDC
ED Tenn. Case No. 4:18-cr-00009, Order, R. 5, Page ID#10; Order, R. 37, Page
ID#122; Order, R. 38, Page ID#123). In the U.S. Court of Appeals for the Sixth
Circuit, undersigned counsel was appointed to represent Mr. Snoddy. (6th Cir. No.
19-6089, Docket Entry No. 10). Since both courts below appointed counsel for
Petitioner, no affidavit of indigency is attached as it is not required pursuant to
Supreme Court Rule 39.1.
WHEREFORE, Petitioner moves to proceed in forma pauperis in this Court
pursuant to the Criminal Justice Act.

1

Respectfully submitted,

s/ Dennis J. Clark
Dennis J. Clark
Attorney for Petitioner
Craig B. Snoddy

Dated: December 22, 2020

2

